May 15, 2012


TO:            Peter Budetti
               Deputy Administrator and Director
               Center for Program Integrity
               Centers for Medicare & Medicaid Services

               Deborah Taylor
               Director and Chief Financial Officer
               Office of Financial Management
               Centers for Medicare & Medicaid Services

FROM:          /Brian P. Ritchie/
               Assistant Inspector General for the
                 Centers for Medicare & Medicaid Audits

SUBJECT:       Medicare Compliance Reviews for Calendar Years 2009 and 2010:
               Piedmont Hospital (A-04-11-00081), Regional Medical Center at Memphis
               (A-04-11-00082), and South Miami Hospital (A-04-11-07023)

Attached for your information are advance copies of our final reports on our most recent hospital
compliance reviews. We will issue these reports to Piedmont Hospital, Regional Medical Center
at Memphis, and South Miami Hospital within 5 business days.

These reports are part of the Office of Inspector General’s hospital compliance initiative
designed to review multiple issues concurrently at individual hospitals. These reviews of
Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov, or your staff may contact
Lori S. Pilcher, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750, or
through email at Lori.Pilcher@oig.hhs.gov.

Attachment

cc:
Daniel Converse
Office of Strategic Operations and Regulatory Affairs
Centers for Medicare & Medicaid Services
                                                             O FFICE OF A UDIT S ERVICES , R EGION IV
                                                              61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                               A TLANTA , GA 30303
May 17, 2012

Report Number: A-04-11-00081

Ms. Tracy Field, J.D.
Executive Vice President, Compliance
Piedmont Healthcare, Inc.
2001 Peachtree Road, N.E., Suite 445
Atlanta, GA 30309

Dear Ms. Field:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of Piedmont Hospital for
Calendar Years 2009 and 2010. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Eric Bowen, Audit Manager, at (404) 562-7789 or through email at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-11-00081 in all correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services



Enclosure
Page 2 – Ms. Tracy Field, J.D.


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
PIEDMONT HOSPITAL FOR CALENDAR
      YEARS 2009 AND 2010




                        Daniel R. Levinson
                         Inspector General

                            May 2012
                          A-04-11-00081
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity of the patient’s diagnosis. The DRG payment is,
with certain exceptions, payment in full to the hospital for all inpatient costs associated with the
beneficiary’s stay.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Piedmont Hospital (the Hospital) is a 481-bed acute care hospital located in Atlanta, Georgia.
Medicare paid the Hospital approximately $225 million for 23,182 inpatient claims for services
provided to beneficiaries during calendar years (CY) 2009 and 2010 based on CMS’s National
Claims History data.

Our audit covered $5,479,446 in Medicare payments to the Hospital for 62 inpatient claims that we
identified as potentially at risk for billing errors. These 62 claims had dates of service in CYs 2009
and 2010.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient services on selected claims.

SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 60 of the 62 inpatient claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
the remaining two claims, resulting in overpayments totaling $129,653 for CYs 2009 and 2010.
Overpayments occurred primarily because the Hospital’s existing controls did not adequately
prevent incorrect billing of these Medicare claims.




                                                   i
RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $129,653 in overpayments for two incorrectly billed
       inpatient claims and

   •   strengthen controls to ensure full compliance with Medicare requirements.

PIEDMONT HOSPITAL COMMENTS

In written comments on our draft report, the Hospital agreed with our recommendations and
described corrective actions that it had taken or planned to take in response to our
recommendations. Piedmont Hospital’s comments are included in their entirety as the Appendix.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page


INTRODUCTION ................................................................................................................ 1

          BACKGROUND ...........................................................................................................        1
              Hospital Inpatient Prospective Payment System ...............................................                             1
              Hospital Payments at Risk for Incorrect Billing ................................................                          1
              Medicare Requirements for Hospital Claims and Payments .............................                                      2
              Piedmont Hospital..............................................................................................           2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                   2
               Objective ............................................................................................................   2
               Scope ................................................................................................................   2
               Methodology ......................................................................................................       3

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ............................ 4
                Inpatient Claims With Payments Greater Than $150,000 ................................. 4
                Inpatient Claims Billed With High Severity Level Diagnosis-Related
                  Group Codes ................................................................................................... 4

          RECOMMENDATIONS ............................................................................................... 5

          PIEDMONT HOSPITAL COMMENTS ....................................................................... 5

APPENDIX

          PIEDMONT HOSPITAL COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity of the patient’s diagnosis. The DRG payment is,
with certain exceptions, payment in full to the hospital for all inpatient costs associated with the
beneficiary’s stay.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    •   inpatient claims with payments greater than $150,000,

    •   inpatient short stays, and

    •   inpatient claims billed with high severity level DRG codes.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”



1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.



                                                         1
This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly.

Piedmont Hospital

Piedmont Hospital (the Hospital) is a 481-bed acute care hospital located in Atlanta, Georgia.
Medicare paid the Hospital approximately $225 million for 23,182 inpatient claims for services
provided to beneficiaries during calendar years (CY) 2009 and 2010 based on CMS’s National
Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient services on selected claims.

Scope

Our audit covered $5,479,446 in Medicare payments to the Hospital for 62 inpatient claims that
we identified as potentially at risk for billing errors. These 62 claims had dates of service in CYs
2009 and 2010.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements but
did not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient
areas of review because our objective did not require an understanding of all internal controls
over the submission and processing of claims. Our review enabled us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.




                                                 2
This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from October 2011 to January 2012.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for CYs 2009 and 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   identified 62 inpatient claims for detailed review;

   •   reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation the Hospital provided to
       support the selected claims;

   •   requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •   reviewed the case management protocol, included in the Hospital’s Utilization Review
       Plan, for inpatient stays;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with the Hospital’s officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                 3
                           FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 60 of the 62 inpatient claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
the remaining two claims, resulting in overpayments totaling $129,653 for CYs 2009 and 2010.
Overpayments occurred primarily because the Hospital’s existing controls did not adequately
prevent incorrect billing of these Medicare claims.

The areas listed below do not include those without findings.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 2 of 62 selected inpatient claims. These errors
resulted in overpayments totaling $129,653.

Inpatient Claims With Payments Greater Than $150,000

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Additionally, the Manual, chapter
1, section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 1 of the 22 selected claims, the Hospital billed Medicare with an incorrect DRG code. The
Hospital had previously identified the error and rebilled the claim under a different DRG code.
However, the Medicare contractor rejected the adjusted claim as a duplicate because of a
technical misunderstanding by the Hospital’s billing department, which coded the adjusted bill as
an original bill. As a result of this error, the Hospital received an overpayment totaling $126,367.

Inpatient Claims Billed With High Severity Level Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Additionally, the Manual, chapter
1, section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 1 of the 20 selected claims, the Hospital billed Medicare with an incorrect DRG code. The
Hospital stated that a coder made an error and assigned the incorrect DRG. This error occurred
because the coder assigned the DRG based on test results rather than physician notes in the
record. As a result of this error, the Hospital received an overpayment totaling $3,286.




                                                  4
RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $129,653 in overpayments for two incorrectly billed
       inpatient claims and

   •   strengthen controls to ensure full compliance with Medicare requirements.

PIEDMONT HOSPITAL COMMENTS

In written comments on our draft report, the Hospital agreed with our recommendations and
described corrective actions that it had taken or planned to take in response to our
recommendations. Piedmont Hospital’s comments are included in their entirety as the Appendix.




                                              5
APPENDIX
                APPENDIX: PIEDMONT HOSPITAL COMMENTS
	                                     Page 1 of 2



dl£6 PIEDMONT
~rF HEALTHCARE
                                              April 5, 2012

   VIA FEDERAL EXPRESS

  Ms. Lori S. Pilcher
  Regional Inspector General
   For Audit Services
  Region IV
  61 Forsyth Street, SW, Suite 3T41
  Atlanta, Georgia 30303

          Re:    Piedmont Hospital
                 DRAFT Report No.: A-04-11-00081

  Dear Ms. Pilcher:

          We have received the U.S. Department of Health and Human Services, Office of
  Inspector General (OIG) draft Report entitled Medicare Compliance Review 0/ Piedmont
  Hospital/or Calendar Years 2009 and 2010, dated March 9, 2012 (the "Report"). We appreciate
  the opportunity to review the Report, and Piedmont Hospital ("Piedmont" or the "Hospital")
  offers the following comments on the Report and the OIG's recommendations.

          Specifically, the Report makes two recommendations:

      •   Recommendation 1: Refund to the Medicare contractor $129,653 in overpayments for 2
          incorrectly billed inpatient claims.

          Piedmont agrees with this recommendation. Refunds were processed.

      •   Recommendation 2:        Strengthen controls to ensure full compliance with Medicare
          requirements.

          Piedmont has extensive internal controls to ensure accurate billing including training and
  continuing education, policies and procedures, internal and external audit programs to ensure
  compliance with Medicare requirements. Nevertheless, tn further strengthen our coding and
  financial compliance, appropriate personnel were re-educated on the requirements for identifying
  a claim as one that has been adjusted versus an original bill. In addition, retraining focused on
  the need to monitor claims rejected for duplicate billings to ensure the root cause of the rejection.




                2001 Peachtree Road NE • Atlanta, Georgia 30309 • 404.605.4569
                                         piedmont.org
                                                                                       Page 2 of 2


                                                       Regional Inspector General for Audit Services
                                                                                      April 5, 2012
                                                                                            Page 2


         With regard to the coder accuracy, Piedmont conducted focused training with appropriate
staff.

        Thank you again for the opportunity to review the Report and comment. Piedmont
Hospital has devoted substantial effort to ensure Medicare requirements are satisfied in our
operations, and we will continue to review and strengthen our processes.


                                                    sm~)Y,       I1£) d
                                                  qf1g~Field
                                                    Executive Vice President, Compliance
                                                    Piedmont Healthcare, Inc.
